No. 19-361

IN THE

'upreme Court of tbe Enitel3 Eptateo
RENADO SMITH AND RICHARD DELANCY,
Petitioners,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit

REPLY BRIEF IN SUPPORT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,992 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 23, 2019.

(
1,

Colin Casey ogan
Wilson-Epes Printing Co., Inc.

